BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Herbert H.
Slatery III, et al. v. Adams & Boyle, P.C., et al., was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 7th day
of October, 2020:
Genevieve Elizabeth Scott
Autumn Chandra Katz
Michelle Katz Moriarty
Center for Reproductive Rights
199 Water Street, 22nd Floor
New York, NY 10038
(917) 637-3600
gscott@reprorights.org
akatz@reprorights.org
mmoriarty@reprorights.org
Thomas Hauser Castelli
ACLU Foundation of Tennessee
P.O. Box 120160
Nashville, TN 37212
(615) 320-7142
tcastelli@aclu-tn.org
Michael J. Dell
Kramer, Levin, N aftalis & Frankel
1177 Avenue of the Americas
New York, NY 10036
(212) 715-9100
mdell@kramerlevin.com

(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

David W. Garrison
Scott P. Tift
Barrett, Johnston, Martin & Garrison
414 Union Street, Suite 900
Nashville, TN 37219
(615) 244-2202
dgarrison@barrettjohnston.com
stift@berrettjohnston.com
Richard Muniz
Planned Parenthood Federation of America
1110 Vermont Avenue, Suite 300
Washington, DC 20005
(202) 973-4800
richard.muniz@ppfa.org
Maithreyi Ratakonda
Planned Parenthood Federation of America
123 William Street, 10th Floor
New York, NY 10038
(212) 261-4405
mai.ratakonda@ppfa.org
Julia Kaye
American Civil Liberties Union
125 Broad Street, 18th Floor
New York, NY 10004
(212) 284-7358
jkaye@aclu.org
Counsel for Respondents

SARAH K. CAMPBELL

Associate Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.campbell@ag.tn.gov
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 8, 2020.

Donna J. W ·
Becker Gallagher Legal ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

